1
        In the January 27, 2000 response to the draft of the subject report, BLM and MMS
generally agreed with our audit report and concurred with all four of our recommendations;
however, only Recommendations 2 and 3 were considered resolved and implemented based on
actions taken by BLM and MMS. Recommendations 1 and 4 were referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation. In January 2005,
we began a review of the status of Recommendations 1 and 4. Subsequent to initiating our status
review, we determined that Recommendation 1 was closed by the Acting Focus Leader,
Management Control and Audit Follow-up, Office of Financial Management, Office of Policy,
Management and Budget, in a memorandum dated October 5, 2004. Because Recommendation
1 was closed, we did not include Recommendation 1 in the scope of this review.

Scope and Methodology

        The scope of our review was limited to determining whether BLM and MMS took
sufficient and timely action to implement Recommendation 4, “Develop and implement a
procedure to review supporting records for future Program notifications submitted by operators
and existing notifications that MMS has not confirmed.”

     To accomplish our objective, we reviewed the supporting documentation that BLM and
MMS had available to indicate the status of the recommendation. We also interviewed BLM and
MMS officials as appropriate.

       We did not perform any site visits or conduct any detailed audit fieldwork to determine
whether the underlying deficiencies identified have been corrected. As a result, this review was
not conducted in accordance with the Government Auditing Standards issued by the Comptroller
General of the United States.

                                     Results of Review
        We found that BLM and MMS did not take timely action to implement the
recommendation since issuance of our report in March 2000. However, on July 21, 2005, BLM
published in the Federal Register its notification to terminate the benefits granted under the
Stripper Oil Well Property Royalty Rate Reduction Program. The effective date of the Program
termination is February 1, 2006. Due to the announced termination of the Stripper Oil Well
Property Royalty Rate Reduction Program, Recommendation 4 is no longer applicable and
should be considered closed and not implemented. BLM is in the process of submitting a request
for closure of Recommendation 4 to the Office of Financial Management.

       If you have any questions regarding this report, please contact me at (303) 236-9243.

cc:   Focus Leader, Management Control and Audit Follow-up
      Audit Liaison Officer, Department of the Interior
      Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
      Audit Liaison Officer, Bureau of Land Management
      Audit Liaison Officer, Minerals Management Service


                                               2
                                                   Appendix



    Status of Audit Review Recommendation

Recommendation       Status             Action Required

      4          Not Implemented   No further action required.
                    and Closed




                              3
